Nos. 19-251 & 19-255
444444444444444444444444444444444444444444
IN THE

Supreme____________________
Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION AND
THOMAS MORE LAW CENTER, Petitioners,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA, Respondent.
____________________
On Writs of Certiorari to the United States Court of
Appeals for the Ninth Circuit
____________________
Brief Amicus Curiae of
Citizens United and Citizens United Foundation
in Support of Petitioners
__________________

MICHAEL BOOS
CITIZENS UNITED
1006 Penn. Ave., SE
Washington, D.C. 20003
Co-Counsel for CU & CUF

JEREMIAH L. MORGAN*
WILLIAM J. OLSON
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae

March 1, 2021

*Counsel of Record

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iv
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

THE CIRCUIT COURT’S OPINION MISAPPLIES
THE RULE ESTABLISHED BY THIS COURT IN
NAACP V. ALABAMA . . . . . . . . . . . . . . . . . . . . . . 3
A. The NAACP Decision Protects
Associational Anonymity, Not Just the
NAACP . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
B. The Facts of AFPF Are Remarkably
Similar to the Facts of NAACP . . . . . . . . . 7
C. The NAACP Decision Should Not Be
Read to Require Every Nonprofit to
Show Harassment and Retaliation . . . . . 10
D. The Reasons to Disregard the
Associational Rights Protected by
NAACP v. Alabama in Campaign
Finance Cases Are Not Present Here. . . . 12
E. This Court Should Follow Justice
Thomas’s Lead in His Robust Protection
of Associational Rights, and Not Rely on
Doe v. Reed . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
II. THE NINTH CIRCUIT’S EXCLUSIVE FOCUS ON
INTEREST BALANCING CAUSED IT TO
IGNORE THE FIRST AMENDMENT
ANONYMITY PRINCIPLES . . . . . . . . . . . . . . . . . . 17
A. The Ninth Circuit’s Opinion Focused on
the Application of an Interest Balancing
Test . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
B. Judicial Interest Balancing Allows
Judges to Elevate Their Will over
Constitutional Text . . . . . . . . . . . . . . . . . . 20
C. Interest Balancing Tests Call into
Question the Court’s Authority to
Undertake Judicial Review . . . . . . . . . . . 25
III. CALIFORNIA CANNOT CONDITION CHARITIES’
EXERCISE OF FIRST AMENDMENT RIGHTS ON
THEIR WAIVER OF FEDERAL TAX RETURN
PROTECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . 27
A. IRS Form 990 Schedule B Is a Protected
Federal Form. . . . . . . . . . . . . . . . . . . . . . . 28
B. Federal Law Prohibits the Disclosure of
Schedule B Donor Information Except as
Lawfully Authorized by the IRS. . . . . . . . 29
C. The Federal Statutory Scheme Protects
the Records the Attorney General
Demands . . . . . . . . . . . . . . . . . . . . . . . . . . 31

iii
D. The Attorney General’s Demand Also
Violates IRC § 7213(a)(4) . . . . . . . . . . . . . 33
E. Charities Cannot Be Forced to Waive
Federal Protections in Order to Engage
in First Amendment Activity . . . . . . . . . . 34
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

iv
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Amendment I . . . . . . . . . . . . . . . . . . . . . . . . 2, passim
Amendment II . . . . . . . . . . . . . . . . . . . . . . . 7, 20, 21
Amendment XIV. . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Article V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
STATUTES
26 U.S.C. § 6103 . . . . . . . . . . . . . . . . . . . . . 29, passim
26 U.S.C. § 6104 . . . . . . . . . . . . . . . . . . . . . 30, 31, 32
26 U.S.C. § 7213 . . . . . . . . . . . . . . . . . . . . . 29, 33, 34
CASES
Brown v. Socialist Workers ‘74 Campaign
Committee, 459 U.S. 87 (1982) . . . . . . . . . . . . 10
Buckley v. Valeo, 424 U.S. 1 (1976). . . . . . 10, passim
Citizens United v. FEC, 558 U.S. 310 (2010) . 18, 25
Citizens United v. Schneiderman,
882 F.3d 374 (2018) . . . . . . . . . . . . . . . . 1, passim
Delaware Strong Families v. Matthew Denn,
Attorney General of Delaware,
136 S.Ct. 2376 (2016). . . . . . . . . . . . . . . . . . . . 16
District of Columbia v. Heller,
554 U.S. 570 (2008) . . . . . . . . . . . . . . . . 7, 20, 21
Doe v. Reed, 561 U.S. 186 (2010). . . . . . . . 13, passim
Employment Division v. Smith,
494 U.S. 872 (1990) . . . . . . . . . . . . . . . . . . . . . 24
Heller v. District of Columbia,
670 F.3d 1244 (2011) . . . . . . . . . . . . . . . . . . . . 23
Korematsu v. United States,
323 U.S. 214 (1944) . . . . . . . . . . . . . . . . . . . . . 26
Marbury v. Madison, 5 U.S. 137 (1803) . . . . . 25, 26

v
McConnell v. FEC, 540 U.S. 93 (2003) . . . . . . . . . 25
McIntyre v. Ohio Elections Commission,
514 U.S. 334 (1995) . . . . . . . . . . . . . . . 11, 12, 22
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958) . . . . . . . . . . . . . . . . 2, passim
Sherbert v. Verner, 374 U.S. 398 (1963) . . . . . . . . 24
Trump v. Hawaii, 138 S. Ct. 2392 (2018) . . . . . . . 26
MISCELLANEOUS
Alan Dershowitz, Cancel Culture: The Latest
Attack on Free Speech and Due Process
(Hot Books: 2020). . . . . . . . . . . . . . . . . . . . . . . 16
A. Hamilton, Federalist No. 78, G. Carey & J.
McClellan, The Federalist at 405
(Liberty Fund: 2001) . . . . . . . . . . . . . . . . . . . . 22
Andy Ngo, Unmasked: Inside Antifa’s Radical
Plan to Destroy Democracy
(Center Street: 2021) . . . . . . . . . . . . . . . . . . . . 16
A. Scalia, “Originalism: The Lesser Evil,”
57 U. CIN. L. REV. 849 (1989) . . . . . . . . . . . . . 22
Transcript of Oral Argument, District of Columbia
v. Heller, No. 07-290 (Mar. 18, 2008) . . . . 20, 21
L. Tribe, American Constitutional Law
(2d ed. 1988) . . . . . . . . . . . . . . . . . . . . . . . . 23, 24

INTEREST OF THE AMICI CURIAE1
Citizens United is a nonprofit social welfare
organization, exempt from federal income tax under
Internal Revenue Code (“IRC”) section 501(c)(4).
Citizens United Foundation is a nonprofit educational
and legal aid organization, exempt under IRC section
501(c)(3). Amici organizations were established, inter
alia, for the purpose of participating in the public
policy process, including conducting research and
informing and educating the public on the proper
construction of state and federal constitutions, as well
as statutes related to the rights of citizens, and
questions related to human and civil rights secured by
law. These amici challenged New York’s demand that
each group file an unredacted Schedule B. See Citizens
United v. Schneiderman, 882 F.3d 274 (2d Cir. 2018).
Additionally, these amici have filed numerous amicus
briefs in this and other related cases, including:
• AFPF v. Becerra, Nos. 16-55727 & 16-55786,
9th Cir., Brief Amicus Curiae in Support of
Plaintiff-Appellee and Affirmance (Jan. 27,
2017);
• AFPF v. Becerra, Nos. 16-55727 & 16-55786,
9th Cir., Brief Amicus Curiae in Support of
Petition for Rehearing En Banc (Oct. 5, 2018);
and
• AFPF v. Becerra, Nos. 19-251 & 19-255, U.S.
Supreme Court, Brief Amicus Curiae in Support
of Petitioners (Sept. 25, 2019).
1

It is hereby certified that counsel for all parties have consented
to the filing of this brief; that no counsel for a party authored this
brief in whole or in part; and that no person other than these
amici curiae, their members, or their counsel made a monetary
contribution to its preparation or submission.

2
SUMMARY OF ARGUMENT
Petitioners First Amendment challenge to
California’s compelled disclosure of the names,
addresses, and contributions of their largest
contributors invoked associational rights and
anonymity principles. The Ninth Circuit understood
this Court’s landmark decision in NAACP v. Alabama,
to have no application unless Petitioners suffered the
exact type of harassment and retaliation suffered by
NAACP members. The Ninth Circuit ignored the
harassment suffered by Petitioners, ignored all the
similarities between the two cases, and confined the
NAACP decision to its facts. The First Amendment
and Due Process Clause of the Fourteenth Amendment
provide strong textual support for anonymous
advocacy and anonymous publishing, including
mailings, and since the Framers utilized anonymous
speech in founding our Republic, the anonymity of
today’s political activists should be likewise respected.
The interest balancing test adopted by the Ninth
Circuit allowed that court to elevate its will over the
constitutional text in an area where the People already
did the interest balancing in adopting their
Constitution.
Federal law shields donor information while
providing a method for state officials to obtain a
nonprofit’s unredacted Schedule B – a federal tax
return. California attempts both to circumvent federal
secrecy statutes, and condition the exercise of a
constitutional right on yielding a federal protection —
a demand which itself may violate federal law.

3
ARGUMENT
I.

THE
CIRCUIT
COURT’S
OPINION
MISAPPLIES THE RULE ESTABLISHED BY
THIS COURT IN NAACP V. ALABAMA.
Decision
Protects
A. The
NAACP
Associational Anonymity, Not Just the
NAACP.

Sixty-three years ago, in what is widely viewed as
a landmark decision, this Court unanimously protected
the list of members of and contributors to a nonprofit
organization, the NAACP, from the prying eyes of a
state Attorney General. See NAACP v. Alabama ex rel.
Patterson, 357 U.S. 449 (1958). In an opinion written
by Justice John Marshall Harlan II, this Court
rejected Alabama’s demand that the NAACP turn over
its membership and donor list to a State official as a
condition of doing business in the State and concluded
that such a condition violated the Due Process clause
of the Fourteenth Amendment.
The Ninth Circuit refused to apply the rule of
anonymity laid down in NAACP, viewing the
anonymity protection as one which could be readily
overcome by a government assertion of a need for the
information. That is not the nature of the anonymity
principle laid down in NAACP. Consider how the
NAACP Court described the associational freedom in
the strongest of terms.
•

“Effective advocacy of both public and private
points of view, particularly controversial

4
ones, is undeniably enhanced by group
association, as this Court has more than once
recognized by remarking upon the close nexus
between the freedoms of speech and
assembly.” Id. at 460 (emphasis added).
•

“It is beyond debate that freedom to engage in
association for the advancement of beliefs and
ideas is an inseparable aspect of the ‘liberty’
assured by the Due Process Clause of the
Fourteenth Amendment, which embraces
freedom of speech.” Id. (emphasis added).

•

“In the domain of these indispensable
liberties, whether of speech, press, or
association, the decisions of this Court
recognize that abridgment of such rights,
even though unintended, may inevitably
follow from varied forms of governmental
action.” Id. at 461 (emphasis added).

•

“[C]ompelled disclosure of affiliation with
groups engaged in advocacy may constitute as
effective a restraint on freedom of
association as the forms of governmental
action in [prior cases] were thought likely to
produce upon the particular constitutional
rights there involved.” Id. (emphasis added).

•

“Compelled disclosure of membership in an
organization engaged in advocacy of particular
beliefs is of the same order [as requiring
adherents of particular religious faiths or

5
political parties to wear armbands.]” Id. at
462.
Justice Harlan wrapped up his observations about
the threat that compelled disclosure presents to
controversial organizations with a rousing defense of
the role of voluntary associations in our Constitutional
Republic:
Inviolability of privacy in group association
may in many circumstances be indispensable
to preservation of freedom of association,
particularly where a group espouses dissident
beliefs. [Id. at 462 (emphasis added).]
The Ninth Circuit seemed to believe that AFPF2
could not assert anonymity protection unless it could
show that in the past its members and donors had
suffered the same type of harassment and retaliation
previously suffered by the members and donors of
NAACP. To be sure, there were occasions in Justice
Harlan’s opinion where he focused attention on the
record of harassment (and worse) that had been
suffered by NAACP members as supporting the need
to protect its membership and donor list, including the
following:
We think that the production order ...
must be regarded as entailing the likelihood of
a substantial restraint upon the exercise by
petitioner’s members of their right to freedom
2

For ease of reference, these amici refer to the AFPF and Thomas
More cases jointly as “AFPF.”

6
of association.
Petitioner has made an
uncontroverted showing that on past
occasions revelation of the identity of its
rank-and-file members has exposed these
members to economic reprisal, loss of
employment, threat of physical coercion, and
other manifestations of public hostility. Under
these circumstances, we think it apparent that
compelled disclosure of petitioner’s
Alabama membership is likely to affect
adversely the ability of petitioner and its
members to pursue their collective effort to
foster beliefs which they admittedly have the
right to advocate, in that it may induce
members to withdraw from the Association
and dissuade others from joining it because of
fear of exposure of their beliefs shown
through their associations and of the
consequences of this exposure. [Id. at 462-63
(emphasis added).]
First, it should be noted that AFPF did make a
strong showing of harassment and threats, but it was
dismissed with a wave of the Ninth Circuit’s collective
hand as not showing disclosure would “‘actually and
meaningfully deter contributors.’”3 AFPF at 1014.
Yet those same facts were viewed quite differently by
District Court Judge Real, who heard the evidence
presented during a bench trial and found the threat
substantial:

3

Contrast that test to the NAACP test: whether disclosure
“may induce members to withdraw.”

7
[A]lthough the Attorney General correctly
points out that such abuses are not as violent
or pervasive as those encountered in NAACP
v. Alabama or other cases from that era, this
Court is not prepared to wait until an
AFP opponent carries out one of the
numerous death threats made against its
members. [AFPF v. Harris, 182 F. Supp. 3d
1049, 1056 (C.D.CA. 2016) (emphasis added).]
Second, the Ninth Circuit’s effort to confine the
rule of NAACP to the precise facts of that earlier case
is similar to the argument made by some opponents of
the Second Amendment that District of Columbia v.
Heller, 554 U.S. 570 (2008) should be read to protect
only the right of an American to own one handgun
which must be kept in the home. If constitutional
rulings are narrowly confined to their facts, then the
principles articulated in this Court’s decisions can be
ignored at will by the lower courts. If adopted, that
approach will require this Court to vastly increase its
docket so that every factual permutation of every
constitutional principle can be litigated and resolved
only by this Court.
B. The Facts of AFPF Are Remarkably
Similar to the Facts of NAACP.
In truth, each of Justice Harlan’s statements of
constitutional principle set out in Subsection I.A,
supra, that applied to protect NAACP members and
donors also should be applied to protect Petitioners.
Indeed, the key facts of the NAACP case are quite
similar to the AFPF case:

8
In NAACP, an Alabama statute required a foreign
corporation to provide donor and member information
before qualifying to do business. See NAACP at 464.
In AFPF, a California rule requires foreign and
domestic nonprofit corporations to reveal donor
information before being allowed to send mail into
California to solicit contributions. See AFPF at 1004.
In NAACP, Alabama sought the list of “members”
and “agents” of the Association not for public
disclosure, but for Alabama’s use in “adequate
preparation for the hearing” on a demurrer submitted
by the NAACP. NAACP at 453. In AFPF, despite the
previous negligent public dissemination of information
about many donors, the Attorney General assures
nonprofits that its filings will not be made public
“except in very limited circumstances.” AFPF at 1004.
To obscure the similarities between the cases as to
harassment suffered by members and donors, the
Ninth Circuit used a rather deceptive approach.
Rather than looking directly to the facts set out in the
NAACP decision, the Ninth Circuit relied on the
Second Circuit’s opinion in Citizens United v.
Schneiderman, 882 F.3d 374 (2018), which described
the facts in the NAACP case as follows:
In NAACP, the Court was presented . . . with
“an uncontroverted showing that on past
occasions revelation of the identity of its rankand-file members has exposed those members
to economic reprisal, loss of employment, [and]
threat of physical coercion,” and it was well
known at the time that civil rights activists in

9
Alabama and elsewhere had been beaten
and/or killed. [AFPF at 1014, n.5 (emphasis
added).]
A review of the NAACP decision shows that neither
“beaten” nor “killed” appear in the text. Inclusion of
those claims of extreme violence first helped the
Second Circuit, and now helped the Ninth Circuit, find
the nonprofit’s claims of harassment insufficient when
compared to the fabricated facts read into NAACP. In
fact, the Schneiderman decision then went on to place
a distinctly modern “woke” spin on the facts of
NAACP.
NAACP members rightly feared violent
retaliation from white supremacists for
their membership in an organization then
actively fighting to overthrow Jim Crow. Id.
Ample evidence of past retaliation and threats
had been presented to the Court. Requiring
the NAACP to turn over its member list to a
state government that would very likely
make that information available to
violent white supremacist organizations,
the Court concluded, would reasonably
prevent at least some of those members
from engaging in further speech and/or
association. Id. at 462-63. Such chilling of
expression is repugnant to the First
Amendment. It can only be justified when the
state’s interest outweighs the harm to
expression and association interests, as
Alabama’s did not.
Id. at 463-66.
[Schneiderman at 381 (emphasis added).]

10
In cloaking the rule of the NAACP case in the
modern terminology of “white supremacy” — again
using words that appear nowhere in the NAACP
decision — the Second Circuit, and now the Ninth
Circuit, found it much easier to conclude that the
NAACP decision had created a narrow rule designed to
protect only civil rights organizations threatened by
violent “white supremacist” organizations suffering
“beatings” and “killings.”
On the other hand, where convenient, the Ninth
Circuit disregarded Schneiderman.
The Second
Circuit statement quoted above indicates that under
the NAACP decision, all that would be required is that
the threats would “prevent at least some of those
members” from continuing their association.
Schneiderman at 381. But the Ninth Circuit refused
to protect AFPF even though it found “the plaintiffs’
evidence shows that some individuals who have or
would support the plaintiffs may be deterred from
contributing...” AFPF at 1014 (bold added).
C. The NAACP Decision Should Not Be Read
to Require Every Nonprofit to Show
Harassment and Retaliation.
To be sure, some of this Court’s decisions have
focused on the degree of harm that would be suffered
by those whose identities were revealed by compelled
disclosure.4 However, the constitutional principle of
4

See, e.g., campaign finance cases Buckley v. Valeo, 424 U.S. 1
(1976); Brown v. Socialist Workers ‘74 Campaign Committee, 459
U.S. 87 (1982). See section I.D., infra.

11
associational anonymity should protect Americans
even if they could not demonstrate to a judicial
tribunal the full nature and extent of the threat of
retaliation they fear. The principle of non-disclosure
applies with or without such a showing. In 1995,
Justice Thomas presented a lengthy review of the view
of the Framers about anonymous political action, and
there was no indication that they believed that
anonymity only applied when harm could be shown:
There is little doubt that the Framers engaged
in anonymous political writing. The essays in
the Federalist Papers, published under the
pseudonym of “Publius,” are only the most
famous example of the outpouring of
anonymous political writing that occurred
during the ratification of the Constitution. Of
course, the simple fact that the Framers
engaged in certain conduct does not
necessarily prove that they forbade its
prohibition by the government. See post, at
373 (Scalia, J., dissenting). In this case,
however, the historical evidence indicates that
Founding-era Americans opposed attempts to
require that anonymous authors reveal their
identities on the ground that forced disclosure
violated the “freedom of the press.” [McIntyre
v. Ohio Elections Commission, 514 U.S. 334,
360-61 (1995) (Thomas, J., concurring).]
To be sure, Justice Thomas’s analysis was
grounded in freedom of the press, but those nonprofits
which publish their positions in letters and mail them
to California with requests for contributions are

12
triggering the press freedom as much as associational
freedom. Madison, Hamilton, and Jay were not
required to demonstrate that harm would have come
to them before publishing the Federalist Papers
anonymously. The same is true for many of the
illustrations Justice Thomas provides in his McIntyre
concurrence. This case provides the opportunity for
this Court to breathe new life into its NAACP
landmark case, and to show that it applies without the
need to show specific harm, and applies regardless of
race-based considerations as to the parties involved.
D. The
Reasons
to
Disregard the
Associational Rights Protected by
NAACP v. Alabama in Campaign Finance
Cases Are Not Present Here.
Two decades after NAACP v. Alabama, this Court
found that despite that decision, the need for public
disclosure of donors to federal elections would
generally override the constitutional protections. See
Buckley v. Valeo at 64 (1976). In Buckley, this Court
took pains to explain that a different rule applied to
elections, where there was a vital need to provide “the
electorate with information ‘as to where political
campaign money comes from and how it is spent by the
candidate’ in order to aid the voters in evaluating
those who seek federal office.” Id. at 66-67. Even in
that special case of elections — where the perceived
need for disclosure completely overtook anonymity
principles — it allowed for cases where certain minor
parties could be exempted from those requirements.
Id. at 72. The standard of harassment set in Buckley,
where anonymity was completely supplanted by the

13
perceived need for plenary disclosure, is quite different
from any standard of harassment that California may
contends the NAACP decision created — where
associational anonymity is the rule — not disclosure.5
E. This Court Should Follow Justice
Thomas’s Lead in His Robust Protection
of Associational Rights, and Not Rely on
Doe v. Reed.
Associational rights were given short shrift by this
Court in Doe v. Reed, 561 U.S. 186 (2010), in striking
down a challenge to the Washington Public Records
Act.6
There, a Washington State referendum
challenged a state law giving certain benefits to samesex couples, leading to a hotly contested battle. This
Court elected to treat the challenge to disclosure of
those who signed the petition for that referendum as
a facial challenge, and refused to protect petition
signers generally on the theory that public disclosure
of their identities was substantially related to
preserving the integrity of the electoral process. The
rationale for the decision is complicated by the fact
that there were five concurring opinions. Four of the
Justices in the eight-person majority are no longer on
the Court, and a fresh look at the issue needs to be
taken — especially due to the change in the political
climate over the past 11 years.

5

In making this argument, these amici are not indicating
agreement with the Buckley Court’s decision on disclosure.

6

Amicus Citizens United filed an amicus brief in Doe v. Reed
(March 4, 2010).

14
Justice Thomas’s dissent focused on the reason for
associational freedom under the First Amendment,
and concluded:
compelled disclosure of signed referendum
and initiative petition under the Washington
Public Records Act (PRA) ... severely
burdens those rights and chills citizen
participation in the referendum process.
Given those burdens, I would hold that
Washington’s decision to subject all
referendum petitions to public disclosure is
unconstitutional because there will always be
a less restrictive means by which Washington
can vindicate its stated interest in preserving
the integrity of its referendum process. [Id. at
228-29 (emphasis added).]
Justice Thomas distinguished cases involving
elections “because ‘[r]eferenda are held on issues, not
candidates for public office,’ the ‘risk of corruption
perceived in cases involving candidate elections simply
is not present in a popular vote on a public issue.’” Id.
at 233 (citation omitted).
Justice Thomas rejected the argument that
disclosure could occasionally have a benefit: “We
should not abandon those principles merely because
Washington and its amici can point to a mere eight
instances of initiative-related fraud....” Id. Here,
Petitioner AFPF has explained that the Attorney
General of California has almost never actually used
the unredacted Schedules B that he claims to be
essential to policing charitable fraud. AFPF Pet. Br.

15
at 13-14.
These amici urge that such a tiny
government “benefit” must not be seen to override
First Amendment protected anonymity. As Justice
Thomas concluded in Doe: “If anything, these meager
figures reinforce the conclusion that the risks of fraud
or corruption in the initiative and referendum process
are remote and thereby undermine Washington’s claim
that those two interests should be considered
compelling for purposes of strict scrutiny.” Doe v.
Reed at 234.
Lastly, Justice Thomas explained why restricting
the First Amendment associational protection to those
who have made a specific showing of harm would
present: “[s]ignificant practical problems.” Id. at 241.
No donor to a nonprofit organization should be
compelled to guess whether the current “cancel
culture” will target a particular organization, and then
target donors to that particular organization. Such a
rule would not prevent the chilling effect on those
wanting to make contributions to like-minded
organizations.
the state of technology today creates at least
some probability that signers of every
referendum will be subjected to threats,
harassment, or reprisals if their personal
information is disclosed. “‘[T]he advent of the
Internet’ enables” rapid dissemination of “‘the
information needed’ to” threaten or harass
every referendum signer.... “Thus, ‘disclosure
permits citizens ... to react to the speech of
[their political opponents] in a proper’ — or
undeniably improper — ‘way’ long before a

16
plaintiff could prevail on an as-applied
challenge.” [Id. at 242-43 (bold added).]
What may have been described as “some
probability” in 2010 has now become a virtual
certainty — at least for conservative and
constitutionally minded organizations. See generally
Alan Dershowitz, Cancel Culture: The Latest Attack
on Free Speech and Due Process (Hot Books: 2020);
Andy Ngo, Unmasked: Inside Antifa’s Radical Plan to
Destroy Democracy (Center Street: 2021).7
Even if the Court were not to reconsider Doe v.
Reed, it should not be applied here, where there is no
“public disclosure” justification. This case presents
this Court with the opportunity to breathe new life
into the anonymity principle.

7

In his dissent from denial of a Petition for Writ of Certiorari in
Delaware Strong Families v. Matthew Denn, Attorney General of
Delaware, 136 S.Ct. 2376 (2016), Justice Thomas urged “it is time
for the Court to reconsider whether a State’s interest in an
informed electorate can ever justify the disclosure of otherwise
anonymous donor rolls.” Id. at 2377.

17
II. THE NINTH CIRCUIT’S EXCLUSIVE FOCUS
ON INTEREST BALANCING CAUSED IT TO
IGNORE THE FIRST AMENDMENT
ANONYMITY PRINCIPLES.
A. The Ninth Circuit’s Opinion Focused on
the Application of an Interest Balancing
Test.
The issues presented to this Court by Petitioners
focus on whether the Ninth Circuit chose the correct
interest balancing test. AFPF asserts that “While the
Court’s compelled-disclosure decisions have used
various formulations to describe the constitutional
test, that test has always remained in substance a
form of either strict or at the very least ‘exacting
scrutiny.’” AFPF Pet. Br. at 23. Thomas More argued
that strict scrutiny should apply, but argued that
California’s demand for unredacted Schedules B “is
unconstitutional under either standard of scrutiny.”
TMLC Pet. Br. at 33. Both petitioners primarily
challenge the Ninth Circuit’s opinion based on its
choice and application of an interest balancing test.
These amici urge the Court to focus on “text, history
and tradition” to reach a proper understanding of First
Amendment protections.
The Ninth Circuit refused to apply strict scrutiny
to resolve its challenge to the donor disclosure
requirement, choosing rather to apply exacting
scrutiny. Indeed, that threshold choice of test, as it
often does in such challenges, became outcome
determinative.
Here, the Ninth Circuit barely
mentioned strict scrutiny in its opinion, to say nothing

18
of evaluating its use, other than asserting that this
Court’s decision in Citizens United v. FEC, 558 U.S.
310 (2010) precluded its use:
To the extent the plaintiffs ask us to apply the
kind of “narrow tailoring” traditionally
required in the context of strict scrutiny, or
to require the state to choose the least
restrictive means of accomplishing its
purposes, they are mistaken.
[AFPF v.
Becerra, 903 F.3d 1000, 1008 (9th Cir.)
(emphasis added).]
That was it. Exacting scrutiny was to be applied based
on perceived controlling or persuasive precedents. The
circuit court’s opinion contains not one shred of
analysis of the First Amendment’s text, what
government evil it was designed to prevent, its
historical context, or the early tradition as to how it
was understood. Along the way, the Ninth Circuit
rejected every factual finding made by the district
court8 after a hearing, declaring that California easily
cleared that bar of exacting scrutiny. AFPF was a
pure “interest balancing” decision, applying malleable
terms that were invented by judges without common
law antecedents or objective meaning, as summarized
below.
1. Plaintiff’s challenge was based on the First
Amendment’s right to free association “by deterring
individuals from making contributions.” Id. at 1004.

8

See AFPF Pet. Br. at 16.

19
2. The California Attorney General’s Schedule B
requirement “survives exacting scrutiny as applied to
the plaintiffs because it is substantially related to
an important state interest in policing charitable
fraud.” Id. (emphasis added).
3. The District Court’s factual findings made at
the conclusion of a bench trial were all in error, and its
observations of the witnesses’ testimony were all
faulty, including that the Attorney General: (a) had
failed to prove that the need for the donor information
was substantially related to an important
governmental interest; (b) had no need for the
information, having access to it from other sources;
(c) did not actually use the information; and (d) had
not adequately safeguarded the information. The
District Court’s finding that those associated with
plaintiff had suffered harassment and threats, were
also in error. Id. at 1007.
4. The Court found a “substantial relation”
between the disclosure requirement and the
governmental interest — refusing to use either
narrow tailoring or the least restrictive means
test. The district court’s “no ‘more burdensome
than necessary’” test was deemed too strict. Id. at
1008, 1011 (emphasis added).
5.
Disclosure serves a compelling law
enforcement interest to determine if a charity is
actually engaging in a charitable purpose, or violating
California law. Id. at 1009.

20
6. The risk of inadvertent public disclosure was
small, and nothing involving the Internet is perfect.
Id. at 1018-19.
Based on that mechanistic interest balancing
analysis, well-established First Amendment principles
of anonymity were disregarded, allowing donor
disclosure to be mandated. There must be a better
way to evaluate constitutional challenges.
B. Judicial Interest Balancing Allows
Judges to Elevate Their Will over
Constitutional Text.
Judicial interest balancing has become so
commonplace in assessing constitutional challenges
that it lulls one into the false sense that the
Constitution is being faithfully applied through use of
such tests. However, increasingly, this Court has been
expressing its dissatisfaction with interest balancing
in a variety of contexts.
At oral argument in District of Columbia v. Heller,
554 U.S. 570 (2008), Chief Justice Roberts questioned
the Solicitor General’s contention that the Court
should use intermediate scrutiny rather than strict
scrutiny for considering encroachments on Second
Amendment protected rights:
[T]hese various phrases under the different
standards that are proposed, “compelling
interest,” “significant interest,” “narrowly
tailored,” none of them appear in the
Constitution.... Isn’t it enough to determine

21
the scope of the existing right that the
amendment refers to ... and determine ... how
this restriction and the scope of this right
looks in relation to [it].... I’m not sure why we
have to articulate some very intricate
standard. I mean, these standards that apply
in the First Amendment just kind of developed
over the years as sort of baggage that the
First Amendment picked up. [Transcript of
Oral Argument, p. 44, District of Columbia v.
Heller, No. 07-290 (Mar. 18, 2008) (emphasis
added).]
In questioning why one of these atextual balancing
tests had to be chosen to understand the scope of the
Second Amendment, Justice Roberts implicitly
questioned whether an interest balancing test is the
best way for the Court to decide a constitutional
challenge under the First Amendment as well.
Finally, a U.S. Supreme Court Justice had the
temerity to point out that the Emperor had no clothes.
The court’s opinion in Heller expanded on Justice
Roberts’ theme, revealing the weaknesses of interest
balancing. Justice Scalia correctly described these
tests as leading to a “judge-empowering ‘interestbalancing inquiry’ that ‘asks whether the statute
burdens a protected interest in a way or to an extent
that is out of proportion to the statute’s salutary
effects upon other important governmental interests.’”
Id. at 634 (emphasis added). In using the term “judgeempowering,” Justice Scalia exposed why modern
judges love interest balancing — such tests allow them

22
to substitute their own will9 for the original public
meaning10 of the words selected by the Framers. It
empowers judges to reassess the importance of the
constitutional protection. Yet, as Justice Scalia
explained: “[t]he very enumeration of the right takes
out of the hands of government — even the Third
Branch of Government — the power to decide on a
case-by-case basis whether the right is really worth
insisting upon.” Id. (bold added). Thus, the judicial
interest balancing used by the Ninth Circuit allowed
that court to avoid a search for the meaning of the
text. But interest balancing is completely unnecessary
because, “Like the First [Amendment, the Second] ...
is the very product of an interest balancing by the
people....” Id. at 635 (bold added). It is also
dangerous, as it allows judges to decide cases based on
what interests they think are most important.
A decade ago, then-Judge Kavanaugh identified
the proper method of constitutional analysis as a
search for what then-Judge Kavanaugh termed the

9

As Alexander Hamilton cautioned: “The courts must declare the
sense of the law” and not “be disposed exercise WILL instead of
JUDGMENT.” A. Hamilton, Federalist No. 78, G. Carey & J.
McClellan, The Federalist at 405 (Liberty Fund: 2001).

10

“We have long recognized that the meaning of the Constitution
‘must necessarily depend on the words of the constitution [and]
the meaning and intention of the convention which framed and
proposed it for adoption and ratification to the conventions ... in
the several states.’” McIntyre v. Ohio Elections Commission, 514
U.S. 334 (1995) (Thomas, J., concurring in the judgment). See also
generally A. Scalia, “Originalism: The Lesser Evil,” 57 U. CIN. L.
REV. 849 (1989).

23
“text, history, and tradition”11 of the constitutional
provision. These amici urge the Court to use this case
to rid the First Amendment of the “baggage” referred
to by Chief Justice Roberts, and adopt a search for the
“original public meaning” of the text. There is not a
shred of this type of analysis in the Ninth Circuit’s
opinion.
In his treatise on American Constitutional Law,
Professor Lawrence Tribe revisited the:
recurring debate in first amendment
jurisprudence ... whether first amendment
rights are “absolute” in the sense that
government may “abridge” them at all, or
whether the first amendment requires the
“balancing” of competing interests in the sense
that free speech values and the government’s
competing justifications must be isolated and
weighed in each case. [L. Tribe, American
Constitutional Law, §12-2, p. 792 (2d ed.
1988).]
Professor Tribe further observed:
The “absolutists” may very well have been
right ... that their approach was better
calculated to protect freedoms of expression....
If the judicial branch is to protect dissenters
from a majority’s tyranny, it cannot be
satisfied with a process of review that requires
11

See Heller v. District of Columbia, 670 F.3d 1244, 1271 (2011)
(Kavanaugh, J., concurring).

24
a court to assess after each incident a myriad
of facts, to guess at the risks created by
expressive conduct, and assign a specific value
to the hard-to-measure worth of particular
instances of free expression. [Id. at 793.]
Although Professor Tribe seems to favor both
absolutists and interest balancing, he recognizes that
the “absolutists” offer a surer foundation for First
Amendment freedoms:
[C]ategorical rules, by drawing clear lines, are
usually less open to manipulation because they
leave less room for the prejudices of the
factfinder.... Categorical rules thus tend to
protect the system of free expression better
because they are more likely to work in spite of
the defects in the human machinery on which
we must rely to preserve fundamental
liberties.
The balancing approach is
contrastingly a slippery slope; once an issue is
seen as a matter of degree, first amendment
protections become especially reliant on the
sympathetic administration of the law. [Id. at
793-94.]
These balancing tests have invaded, for example,
the free exercise of religion12 and the freedom of

12

See, e.g., Sherbert v. Verner, 374 U.S. 398 (1963). (The
compelling interest test, as applied to the free exercise guarantee
standing alone, was rejected in Employment Division v. Smith,
494 U.S. 872 (1990).)

25
speech.13 By the beginning of the 21st century, this
Court’s constitutional jurisprudence was steeped in
balancing formulas, sociological studies, economic
models, and other nonconstitutional sources. See, e.g.,
McConnell v. FEC, 540 U.S. 93 (2003); see also
Citizens United at 332 (“[The] inquiry into the facial
validity of the statute was facilitated by the extensive
record, which was ‘over 100,000 pages’ long....”). This
interest-balancing approach allows judges to disregard
the constitutional rights of citizens if the government
persuasively asserts that it “needs” greater power over
its citizens. This approach must end.
C. Interest Balancing Tests Call into
Question the Court’s Authority to
Undertake Judicial Review.
If the Courts are not in a search for the original
public meaning of the Constitution to apply, it raises
the question: what is the source of their authority to
resolve constitutional cases? The very foundation for
judicial review of a statute, federal or state, under the
U.S. Constitution, is that “courts, as well other
departments, are bound by that instrument.” Marbury
v. Madison, 5 U.S. 137, 180 (1803). Thus, in exercising
its “province and duty ... to say what the law is” (id. at
177), the judiciary must be careful not to adopt rules
of interpretation that allow judges to stray from the
constitutional text, and thus substitute its own will for
that of the people, who alone have the sovereign power
to lay down the binding rules upon those authorized to

13

See, e.g., Buckley v. Valeo, 424 U.S. 1 (1976).

26
govern. See id. at 176-78. Yet, that is precisely what
courts have done with interest-balancing standards of
review in First Amendment cases.
In the exercise of their sovereignty, the people of
the United States have laid down the principled rule
for the First Amendment that “Congress shall make no
law.” U.S. Constitution, Amendment I. In the exercise
of their respective powers, it is not for any branch of
government to place countervailing government
interests over enumerated rights, whether compelling,
substantial, or otherwise. Indeed, if a governmental
interest is so compelling, then the only way for those
who support that interest to impose it on their fellow
citizens is by following the amendment process of
Article V of the U.S. Constitution. If this supermajoritarian process may be bypassed by the judicial
fiat of five justices of the United States Supreme
Court, then the “written constitution[] [is an] absurd
attempt[], on the part of the people, to limit a power,
in its own nature illimitable.” Marbury at 177.
Strict scrutiny and exacting scrutiny are judicially
created tests, finding no predicate in the constitutional
text. Instead, these tests share a common historical
antecedent in Korematsu v. United States, 323 U.S.
214 (1944), where this Court applied “the most rigid
scrutiny” (id. at 216) to reach a decision which “was
gravely wrong the day it was decided, has been
overruled in the court of history, and — to be clear —
‘has no place in law under the Constitution.’” Trump
v. Hawaii, 138 S. Ct. 2392, 2423 (2018).

27
III. CALIFORNIA
CANNOT
CONDITION
CHARITIES’ EXERCISE OF FIRST
AMENDMENT RIGHTS ON THEIR WAIVER
OF
FEDERAL
TAX
RETURN
PROTECTIONS.
The Ninth Circuit’s decision explained that “[t]he
IRS and the California Attorney General both make
certain filings of tax-exempt organizations publicly
available but exclude Schedule B information from
public inspection. See 26 U.S.C. § 6104; Cal Gov’t
Code § 12590; Cal. Code Regs. tit. 11, § 310.” AFPF at
1005. Despite the Ninth Circuit’s recognition of one
aspect of federal law applicable to the Schedule B, it
failed to fully recognize another aspect particularly
applicable that could have affected its conclusions.
Congress provided not only for protection of certain
confidential information, but also provided a procedure
for state law enforcement agencies such as Respondent
to request the confidential information from the IRS if
certain requirements are met. Regardless of whether
that particular procedure comports with the Fourth
Amendment, Respondent’s demand for the charities to
turn over the confidential Schedule B forces charities
to waive the procedural protections established by
Congress in exchange for the “privilege” to exercise
their First Amendment rights in the state of
California.

28
A. IRS Form 990 Schedule B Is a Protected
Federal Form.
The IRS Form 990 is a federal tax return. Tax
exempt organizations that file them with the IRS are
generally required to make a copy publicly available
upon request. However, the specific tax return
information required by the Attorney General —
confidential donor information at issue in this case —
is the exception to the federal rule requiring public
disclosure.14 Indeed, the IRS Form 990 Schedule B
“Schedule of Contributors”15 is robustly protected from
disclosure outside the IRS. On this form, the nonprofit
must submit to the IRS the “Name, address, and
ZIP+4” of all “Contributors” over a certain threshold
(generally those who contributed $5,000 or more in one
fiscal year), their “Total contributions” for the year,
and certain other information about the type of
contribution.
As to nonprofit organizations other than private
foundations or IRC section 527 political organizations,
the General Instructions which accompany Schedule B

14

The IRS Form 990 Schedule B donor information is expressly
exempted from the federal requirement that organizations must
provide their IRS Forms 990 for public inspection. See, e.g., IRS,
“Exempt Organization Public Disclosure and Availability
Requirements,” https://www.irs.gov/charities-non-profits/
exempt-organization-public-disclosure-and-availability-require
ments.
15

This Schedule B form is required by federal law to be filed with
the IRS by many 501(c)(3) nonprofit organizations that file IRS
Forms 990, 990-EZ, or 990-PF.

29
state: “the names and addresses of contributors aren’t
required to be made available for public inspection.”16
For as many years as the filing of a Schedule B has
been required by the IRS, no state with a charitable
solicitation law requiring registration and reporting
mandated filing an unredacted Schedule B, until
demands began several years ago by the Attorney
General of California and the Attorney General of New
York.17 Contrary to the letter and spirit of the
statutory scheme enacted by Congress in the Internal
Revenue Code, these demands seek to circumvent
federal law.
B. Federal Law Prohibits the Disclosure of
Schedule B Donor Information Except as
Lawfully Authorized by the IRS.
The Internal Revenue Code establishes strict rules
in IRC § 6103, protecting “returns” and tax “return
information” (defined in IRC § 6103(b)(2) and (3)) from
disclosure. IRC § 6103’s statutory scheme has broad
proscriptions against disclosing federal tax returns
and tax return information, and specifically lists the
circumstances under which such disclosure is
permissible. IRC § 7213 prescribes harsh penalties for
“willful” violation of IRC § 6103, which is a felony.
Incoming IRS employees are trained to protect such
tax return information from public disclosure —

16

17

See https://www.irs.gov/pub/irs-pdf/f990ezb.pdf at 5.

See Citizens United v. Schneiderman, U.S.C.A. 2d Cir., No. 163310, Brief Amicus Curiae of Free Speech Defense and Education
Fund, et al. (Jan. 13, 2017).

30
including to state officials. Under federal law, state
officials may have limited access to such tax returns,
but only in particular cases through formal requests
made to the IRS, providing sufficient justification for
law enforcement purposes. See IRC § 6104(c)(2).
There is no provision of federal law which sanctions
the demands of the Attorney General to taxpayers to
provide these federal tax returns to state officials and
penalize those who choose to keep their donor
information confidential.
These amici submit that the Attorney General is
attempting an end-run around the strictures of IRC
§ 6103 by demanding from public charities what the
Attorney General is not entitled to obtain directly from
the IRS. A public charity’s Form 990 Schedule B
information constitutes a “return” under IRC
§ 6103(b)(1), and donors’ identities and addresses
constitute tax “return information” under IRC
§ 6103(b)(2). Such tax return information was
required, collected, and filed for federal purposes, not
to comply with any state requirement. And, in the
absence of an actual valid law-enforcement purpose, no
Attorney General may obtain such information directly
from the IRS, either under IRC § 6103 or under IRC
§ 6104.
The Attorney General has not attempted to avail
himself of access to these forms through the IRS —
and for good reason. He would not be able to obtain
donor information for all nonprofit under § 6103. Nor
would the Schedule B information be available by
resort to IRC § 6104, despite the fact that § 6104
requires mandatory disclosure of certain tax items —

31
including Form 990 information — because § 6104
expressly exempts Schedule B donor information from
the reach of the statute. Not only is confidential donor
information exempted from the provision requiring
public disclosure of recent Forms 990, but also such
information is beyond the reach of the states — except
for an investigation for cause.18
C. The Federal Statutory Scheme Protects
the Records the Attorney General
Demands.
Clearly, then, the Form 990 Schedule B
information (setting forth the names and addresses of
contributors) not only is not required to be publicly
disclosed by the exempt organizations, but also is
required to be kept confidential by the IRS. Indeed,
IRC § 6103 underscores the fact that return
information is confidential.
The intent of Congress in developing its statutory
scheme to protect confidential donor information is
expressly revealed by two IRC sections. IRC § 6104(b)
governs disclosure of Form 990 information by the
government:

18

The Internal Revenue Code authorizes the California Attorney
General to request the Schedules B from the IRS, but only
pursuant to a specific investigation for cause, subject to the
approval of the United States Secretary of Treasury. See IRC
§ 6104(c)(2)(D). In the absence of a showing of appropriate cause,
there is no authority for the IRS to disclose donor information to
State officials.

32
The information required to be furnished by
sections 6033, 6034, and 6058, together with
the names and addresses of such organizations
and trusts, shall be made available to the
public at such times and in such places as the
Secretary may prescribe. Nothing in this
subsection shall authorize the Secretary
to disclose the name or address of any
contributor to any organization or trust
(other than a private foundation, as defined in
section 509(a) or a political organization
exempt from taxation under section 527) which
is required to furnish such information.... [26
U.S.C. § 6104(b) (emphasis added).]
And IRC § 6104(d) governs disclosure of Form 990
information by the exempt organization itself:
In the case of an organization which is not
a private foundation (within the meaning of
section 509(a)) or a political organization
exempt from taxation under section 527,
paragraph (1) shall not require the disclosure
of the name or address of any contributor
to the organization. In the case of an
organization described in section 501(d),
paragraph (1) shall not require the disclosure
of the copies referred to in section 6031(b) with
respect to such organization. [26 U.S.C.
§ 6104(d)(3)(A) (emphasis added).]
It is in the face of those very clear provisions of the
Internal Revenue Code that the Attorney General
devised a method of circumventing the federal statutes

33
by demanding the confidential information from the
tax-exempt organizations themselves, as a prerequisite
to conducting charitable solicitations in the State of
California. The Attorney General’s demand for
confidential donor information violates the carefully
constructed statutory scheme set forth in the Internal
Revenue Code.
D. The Attorney General’s Demand Also
Violates IRC § 7213(a)(4).
The Attorney General’s action appears to also
violate § 7213(a)(4) of the IRC, as the statute provides:
It shall be unlawful for any person willfully to
offer any item of material value in
exchange for any return or return information
(as defined in section 6103(b)) and to receive
as a result of such solicitation any such return
or return information. Any violation of this
paragraph shall be a felony punishable by a
fine in any amount not exceeding $5,000, or
imprisonment of not more than 5 years, or
both, together with the costs of prosecution.
[26 U.S.C. § 7213(a)(4) (emphasis added).]
Although no judicial decision on point has been
identified, the actions of the Attorney General appear
to fall within the prohibition of the statute. Certainly,
it would be easy for a federal prosecutor to argue that
the Attorney General’s approval of a charity’s
application, which is required as a precondition to the
exercise of the First Amendment right to engage in
charitable solicitations in California, constitutes an

34
“item of material value.” By holding out its permission
in exchange for an organization’s return information,
the Attorney General’s actions appear to fit squarely
within that statute’s prohibition.
It is not an overstatement to view the demands of
the Attorney General as a form of government
extortion — conditioning state permission to solicit
funds (the lifeblood of any organization) upon
“voluntary” disclosure of federally protected
confidential donor information. In so doing, the
Attorney General is violating the protections for such
return information crafted by Congress in enacting
IRC § 6103 and, moreover, appears to be in specific
violation of IRC § 7213(a)(4).
E. Charities Cannot Be Forced to Waive
Federal Protections in Order to Engage
in First Amendment Activity.
When Congress provided procedures for state law
enforcement to have access to confidential federal tax
information, it struck a balance between the need for
law enforcement and the right of confidentiality in that
information. The Congressional scheme requires some
reason for state law enforcement to make the request,
but the California Attorney General’s demand for
Schedule B directly from the charities it requires to
register forces them to make a choice: forfeit the
protections in tax law for theirs and their donors’
information, or forfeit their First Amendment
freedoms. This is not a choice that the California
Attorney General should be allowed to impose on
charities.

35
CONCLUSION
These amici urge the Court to reverse and remand
with instructions to enter a permanent injunction
against enforcement of the Attorney General’s policy
and regulations requiring filing of unredacted
Schedules B.
Respectfully submitted,
MICHAEL BOOS
JEREMIAH L. MORGAN*
CITIZENS UNITED
WILLIAM J. OLSON
1006 Penn. Ave., SE
ROBERT J. OLSON
Washington, D.C. 20003
WILLIAM J. OLSON, P.C.
Co-Counsel for
370 Maple Ave. W.
Amici Curiae CU/CUF
Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record
March 1, 2021

